No. __-____

In the Supreme Court of the United States
KEVIN LEE BOUTTE,
v.

Petitioner,

YVONNE RENEA BOUTTE,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF THE STATE OF LOUISIANA
CERTIFICATE OF WORD COUNT
OF PETITION FOR A WRIT OF CERTIORARI
CARSON J. TUCKER, JD, MSEL
Counsel of Record
LEX FORI, PLLC
DPT #3020
1250 W. 14 Mile Rd.
Troy, MI 48083-1030
(734) 887-9261
cjtucker@lexfori.org

CERTIFICATE OF WORD COUNT OF
PETITION FOR WRIT OF CERTIORARI
As required by Supreme Court Rule 33.1(h), and
Orders of this Court dated April 15, 2020, I declare
that the Petition for Writ of Certiorari to the
Louisiana Supreme Court being filed herewith is
8,950 words, excluding parts of the document that are
exempted by Supreme Court Rule 33.1(d).
Respectfully submitted,
Carson J. Tucker
Lex Fori, PLLC
Attorney for Petitioner
(734) 887-9261
Dated: July 9, 2021

